Department of Health and Human Services

                   OFFICE OF

              INSPECTOR GENERAL




   CGS ADMINISTRATORS, LLC 

     MADE MEDICARE PART B

   PAYMENTS FOR THERAPEUTIC 

      SHOES FURNISHED TO

  BENEFICIARIES IN PUERTO RICO

    THAT GENERALLY DID NOT 

     COMPLY WITH FEDERAL

        REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert

                                               Regional Inspector General


                                                        June 2013

                                                      A-02-11-01001

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


 CGS Administrators, LLC made payments for therapeutic shoes furnished to Medicare
 beneficiaries in Puerto Rico that generally did not comply with Federal requirements.



WHY WE DID THIS REVIEW

Medicare Part B covers durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS), including therapeutic shoes for individuals with diabetes. CGS Administrators,
LLC (CGS) contracts with the Centers for Medicare & Medicaid Services (CMS) to process and
pay Medicare Part B claims for DMEPOS including therapeutic shoes and inserts (therapeutic
shoes).

This review was performed as a result of Medicare program integrity efforts that identified
suppliers who were improperly billing for therapeutic shoes furnished to beneficiaries
(beneficiaries) in Puerto Rico. In addition, a prior Office of Inspector General review of
DMEPOS claims determined that suppliers did not always have required documentation on file.

Our objective was to determine whether Medicare Part B claims processed and paid by CGS for
therapeutic shoes furnished to beneficiaries complied with Federal requirements.

BACKGROUND

Medicare Part B provides for the coverage of DMEPOS. CMS, which administers the Medicare
program, contracts with durable medical equipment Medicare administrative contractors (DME
MAC) to, among other things, process and pay claims for therapeutic shoes. CGS is the DME
MAC for the Commonwealth of Puerto Rico.

A physician who is treating a beneficiary’s systemic diabetic condition must certify the need for
therapeutic shoes to treat qualifying foot conditions and the shoes must be ordered by a podiatrist
or other qualified physician. In addition, therapeutic shoe suppliers must add a KX modifier to
the claims attesting that required documentation, including the signed and dated physician’s
order and proof of delivery, is on file. Claims submitted without the KX modifier will be denied
for payment.

HOW WE CONDUCTED THIS REVIEW

During the period January 1, 2009, through June 30, 2010, CGS processed approximately
$1.5 million in Part B claims for therapeutic shoes supplied to 6,269 beneficiaries. We selected a
stratified random sample of 100 beneficiaries and for each sampled beneficiary we obtained and
reviewed the supporting documentation maintained by the therapeutic shoe supplier.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                  i
WHAT WE FOUND

Most Medicare Part B claims processed and paid by CGS for therapeutic shoes furnished to
beneficiaries did not comply with Federal requirements. For the 100 sampled beneficiaries in
our stratified random sample, CGS correctly processed and paid claims for therapeutic shoes for
38 of the sampled beneficiaries. However, for the remaining 62 sampled beneficiaries, CGS
processed and paid claims for therapeutic shoes totaling $13,906 in unallowable payments to
suppliers that did not comply with Federal requirements. Specifically:

    •	 For 43 sampled beneficiaries, physician’s orders were missing or incomplete.

    •	 For 37 sampled beneficiaries, the physician’s certification for therapeutic shoes was
       missing or incomplete.

    •	 For two sampled beneficiaries, the supplier did not maintain proof of delivery

       documentation.


The total exceeds 62 because we found more than 1 deficiency for 19 sampled beneficiaries.

On the basis of our sample results, we estimated that CGS paid $781,751 in unallowable
Medicare payments for therapeutic shoes furnished to beneficiaries during our January 1, 2009,
through June 30, 2010 audit period.

Suppliers included in our sample attributed the unallowable payments to clerical errors and a
lack of knowledge of applicable Medicare requirements. Moreover, CGS did not review these
claims to determine if they were allowable. Rather, CGS relied on training and guidance
provided to suppliers and the required the usage of the KX modifier to ensure claims complied
with Federal requirements.

WHAT WE RECOMMEND

We recommend that CGS:

    •	 recover the $13,906 in identified overpayments;

    •	 determine the additional amount of unallowable payments in the population, estimated to
       be $767,845 ($781,751 less $13,906); and

    •	 use the results of this audit in its supplier education activities.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                  ii
CGS COMMENTS

In written comments on our draft report, CGS concurred with our first and third
recommendations. Regarding our second recommendation, CGS stated that it would consider
conducting a statistical review of claims for therapeutic shoes. CGS also stated that it was aware
of vulnerabilities associated with claims for therapeutic shoes and described corrective actions
that it has taken to address those vulnerabilities.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                iii
                                                    TABLE OF CONTENTS


                                                                                                                                      Page


INTRODUCTION......................................................................................................................1


         Why We Did This Review ...............................................................................................1


         Objective...........................................................................................................................1


         Background ......................................................................................................................1

               Medicare Program .................................................................................................1

               Medicare Part B Coverage of Therapeutic Shoes .................................................1

               CGS Administrators, LLC.....................................................................................2


         How We Conducted This Review...................................................................................2


FINDINGS ..................................................................................................................................2


         Physician’s Order Missing or Incomplete .....................................................................3


         Physician’s Certification Missing or Incomplete..........................................................3


         No Proof of Delivery ........................................................................................................3


RECOMMENDATIONS...........................................................................................................4


CGS COMMENTS ....................................................................................................................4


APPENDIXES


           A: Audit Scope and Methodology ................................................................................5


           B: Statistical Sampling Methodology ..........................................................................7


           C: Sample Results and Estimates ................................................................................9


           D: Related Office of Inspector General Reports ........................................................10


           E: CGS Comments .......................................................................................................11





Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                                                  iv
                                               INTRODUCTION


WHY WE DID THIS REVIEW

Medicare Part B covers durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS), including therapeutic shoes for individuals with diabetes. CGS Administrators,
LLC (CGS) contracts with the Centers for Medicare & Medicaid Services (CMS) to process and
pay Medicare Part B claims for DMEPOS including therapeutic shoes and inserts (therapeutic
shoes). 1

This review was performed as a result of Medicare program integrity efforts that identified
suppliers who were improperly billing for therapeutic shoes furnished to beneficiaries
(beneficiaries) in Puerto Rico. In addition, a prior Office of Inspector General review of
DMEPOS claims determined that suppliers did not always have required documentation on file. 2

OBJECTIVE

Our objective was to determine whether Medicare Part B claims processed and paid by CGS for
therapeutic shoes furnished to beneficiaries complied with Federal requirements.

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. CMS administers the Medicare program.

Medicare Part B Coverage of Therapeutic Shoes

Medicare Part B covers DMEPOS including therapeutic shoes for individuals with diabetes
(sections 1832(a)(1) and 1861(n) of the Act). These shoes are designed to reduce the risk of skin
breakdown for individuals with poor circulation which can result in calluses, ulcers, or
amputation.

A physician who is treating a beneficiary’s systemic diabetic condition must certify the need for
therapeutic shoes to treat qualifying foot conditions. 3 In addition, the shoes must be ordered by a

1
  CGS processes and pays DMEPOS claims for Puerto Rico, Alabama, Arkansas, Colorado, Florida, Georgia,
Louisiana, Mississippi, New Mexico, North Carolina, Oklahoma, South Carolina, Tennessee, Texas, U.S. Virgin
Islands, Virginia, and West Virginia.
2
 Review of Jurisdiction C Medicare Payments for Selected Durable Medical Equipment Claims With the KX
Modifier for Calendar Year 2007 (A-04-09-04039, issued June 16, 2010).
3
 Section 1861(s)(12) of the Act. Qualifying foot conditions include poor circulation, history of pre-ulcerative
calluses, peripheral neuropathy with evidence of callus formation, history of ulceration, foot deformity, and previous
amputation or partial amputation.


Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                    1
podiatrist or other qualified physician. The Local Coverage Determination (LCD) requires
therapeutic shoe suppliers to add a KX modifier to the claims attesting that required
documentation, including the signed and dated physician’s order and proof of delivery
documentation, is on file. 4 Claims submitted without the KX modifier will be denied for
payment.

CGS Administrators, LLC

CMS contracts with durable medical equipment Medicare administrative contractors (DME
MAC) to, among other things, process and pay DMEPOS claims. CGS is the DME MAC for the
Commonwealth of Puerto Rico. During the period January 1, 2009, through June 30, 2010, CGS
processed and paid approximately $1.5 million in Part B claims for therapeutic shoes furnished
to beneficiaries.

HOW WE CONDUCTED THIS REVIEW

We selected a stratified random sample of 100 beneficiaries. For each sampled beneficiary, we
obtained and reviewed the supporting documentation maintained by the therapeutic shoe
supplier.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains
details of our statistical sampling methodology, and Appendix C contains our sample results and
estimates.

                                                   FINDINGS

Most Medicare Part B claims processed and paid by CGS for therapeutic shoes furnished to
beneficiaries did not comply with Federal requirements. For the 100 sampled beneficiaries in
our stratified random sample, CGS correctly processed and paid claims for therapeutic shoes for
38 of the sampled beneficiaries. However, for the remaining 62 sampled beneficiaries, CGS
processed and paid claims for therapeutic shoes totaling $13,906 in unallowable payments to
suppliers that did not comply with Federal requirements. Specifically:

    •	 For 43 sampled beneficiaries, physician’s orders were missing or incomplete.

    •	 For 37 sampled beneficiaries, the physician’s certification for therapeutic shoes was
       missing or incomplete.


4
 LCD L11525. An LCD is a decision by a Medicare administrative contractor to cover a particular item or service.
LCDs must be consistent with all statutes; rulings; regulations; and national coverage, payment, and coding policies.


Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                    2
      •	 For two sampled beneficiaries, the supplier did not maintain proof of delivery

         documentation.


The total exceeds 62 because we found more than 1 deficiency for 19 sampled beneficiaries.

On the basis of our sample results, we estimated that CGS paid $781,751 in unallowable
Medicare payments for therapeutic shoes furnished to beneficiaries during our January 1, 2009,
through June 30, 2010 audit period.

Suppliers included in our sample attributed the unallowable payments to clerical errors and a
lack of knowledge of applicable Medicare requirements. Moreover, CGS did not review these
claims to determine if they were allowable. Rather, CGS relied on training and guidance
provided to suppliers and the required the usage of the KX modifier to ensure claims complied
with Federal requirements.

PHYSICIAN’S ORDER MISSING OR INCOMPLETE

The particular type of therapeutic shoes are prescribed by a podiatrist or other qualified physician
(section 1861(s)(12)(B) of the Act). In addition, the physician’s order must be signed and dated,
kept on file by the supplier, and made available upon request (LCD L11525).

For 43 of the 100 sampled beneficiaries, suppliers submitted claims that were not supported by a
physician’s order. For 32 of these beneficiaries, suppliers had a physician’s order on file but the
order did not include required elements. Specifically, the physician’s order either was not signed
and dated or did not include a description of the item. For the remaining 11 beneficiaries,
suppliers did not have a physician’s order on file.

PHYSICIAN’S CERTIFICATION MISSING OR INCOMPLETE

A physician who is treating a Medicare beneficiary’s diabetic condition must, among other
things, certify under a comprehensive plan of care the beneficiary’s need for therapeutic shoes to
treat qualifying foot conditions (section 1861(s)(12)(A) of the Act). The supplier must obtain a
completed, signed, and dated certification from the physician (LCD L11525).

For 37 of the 100 sampled beneficiaries, suppliers submitted claims that were not supported by a
statement from the beneficiary’s physician certifying the need for the therapeutic shoes. For 19
of these beneficiaries, suppliers had the physician’s certification statement on file. However, the
certification statement was either not signed and dated by the physician or did not include a
description of the qualifying foot conditions being treated. For the remaining 18 beneficiaries,
suppliers did not have a physician’s certification statement on file.

NO PROOF OF DELIVERY

Suppliers are responsible for delivering Medicare-covered items to beneficiaries and maintaining
proof of delivery documentation for 7 years. 5
5
    42 CFR § 424.57(c)(12); chapter 4, section 4.26 of CMS’s Medicare Program Integrity Manual, Pub. No. 100-08.


Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                               3
For 2 of the 100 sampled beneficiaries, the supplier did not maintain proof of delivery
documentation to support billing for the therapeutic shoes.

                                       RECOMMENDATIONS

We recommend that CGS:

    •	 recover the $13,906 in identified overpayments;

    •	 determine the additional amount of unallowable payments in the population, estimated to
       be $767,845 ($781,751 less $13,906); and

    •	 use the results of this audit in its supplier education activities.

CGS COMMENTS

In written comments on our draft report, CGS concurred with our first and third
recommendations. Regarding our second recommendation, CGS stated that it would consider
conducting a statistical review of claims for therapeutic shoes. CGS also stated that it was aware
of vulnerabilities associated with claims for therapeutic shoes and described corrective actions
that it has taken to address those vulnerabilities. CGS’s comments are included in their entirety
as Appendix E.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                 4
                         APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 7,321 Medicare Part B claims, totaling $1,516,309, which were processed
and paid by CGS for therapeutic shoes furnished to 6,269 beneficiaries during the period
January 1, 2009, through June 30, 2010.

We did not assess the overall internal control structure of CGS. Rather, we reviewed only the
internal controls that pertained directly to our objective. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file for our audit period, but we did not assess the completeness of the file.

We conducted fieldwork at 52 therapeutic shoe suppliers located in Puerto Rico and 4 suppliers
located in Florida. 6 In addition, we contacted CGS officials in Nashville, Tennessee.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Federal laws, regulations and other guidance;

    •	 interviewed CGS officials to obtain an understanding of CGS’s procedures for processing
       Medicare therapeutic shoe claims;

    •	 extracted from the CMS National Claims History file a sampling frame of 6,269
       beneficiaries with therapeutic shoe claims that were processed and paid by CGS during
       the period January 1, 2009, through June 30, 2010;

    •	 selected a stratified random sample of 100 beneficiaries from the sampling frame of
       6,269 beneficiaries, and for each of the 100 sampled beneficiaries, we:

             •	 interviewed supplier officials to gain an understanding of their policies and
                procedures for submitting claims for therapeutic shoes to CGS and

             •	 reviewed corresponding claims documentation maintained by the supplier; and

    •	 discussed the results of our review with CGS officials.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.




6
  For 11 sampled beneficiaries, the therapeutic shoes were furnished in Puerto Rico by suppliers with main offices
located in Florida.


Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                     5
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                               6
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY



POPULATION

The population consisted of beneficiaries for whom therapeutic shoe suppliers were paid by CGS
during our January 1, 2009, through June 30, 2010 audit period.

SAMPLING FRAME

The sampling frame consisted of 6,269 Medicare beneficiaries for whom therapeutic shoe
suppliers were paid by CGS, totaling $1,516,309. The Medicare Part B claims were extracted
from the CMS National Claims History file.

SAMPLE UNIT

The sample unit was a Medicare beneficiary for whom a therapeutic shoe supplier was paid by
CGS. (One Medicare beneficiary may have had multiple therapeutic shoes claimed for
reimbursement.)

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected a sample of 100 Medicare beneficiaries as follows:

    •   Stratum 1: 60 beneficiaries with 1 claim for therapeutic shoes.

    •   Stratum 2: 40 beneficiaries with 2 claims for therapeutic shoes.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS) statistical software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the 6,269 Medicare beneficiaries. After generating 100 random
numbers, we selected the corresponding frame items.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                              7
ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to calculate our estimates. We used the point estimate
of the 90-percent confidence level to estimate the overpayment associated with the unallowable
claims.




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                              8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES


                                      Sample Details and Results


                                                                           Number of
                                 Value of        Sample        Value of
 Stratum       Frame Size                                                 Beneficiaries   Overpayments
                                  Frame           Size         Sample
                                                                          With Errors

    1             5,316         $1,169,091          60         $13,397         35           $ 6,954

    2              953          $ 347,218           40         $13,418         27           $ 6,952

  Total           6,269         $1,516,309         100         $26,815         62           $13,906



                                Estimated Unallowable Payments

                    (Limits Calculated for the 90-Percent Confidence Interval)


                             Point Estimate                   $781,751
                             Lower Limit                      $654,792
                             Upper Limit                      $908,711




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                9
       APPENDIX D: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                       Report           Date
                             Report Title                              Number          Issued
 Review of Medicare Claims for Home Blood-Glucose Test Strips and   A-09-08-00045     01/21/11
 Lancets-Durable Medical Equipment Medicare Administrative
 Contractor for Jurisdiction C

 Review of Medicare Claims for Home Blood-Glucose Test Strips and   A-09-08-00046     02/04/11
 Lancets-Durable Medical Equipment Medicare Administrative
 Contractor for Jurisdiction D

 Questionable Billing by Suppliers of Lower Limb Prostheses         OEI-02-10-00170   08/17/11

 Claim Modifier Did Not Prevent Medicare From Paying Millions in    A-04-10-04004     04/05/12
 Unallowable Claims for Selected Durable Medical Equipment




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                            10
                                                  APPENDIX E: CGS COMMENTS

          ..
                 John F. Kimball
                 Vice President, Operations
                 CGS Administrators, LLC
                                                                                                                      0
                                                                                                                    CGS
                                                                                                          "-    ELERIAN   Rl   ur   IMPANY


                                                                                                               Two Vantage Way
                                                                                                               Nashville, TN 37228
                                                                                                               Tel: 615.782.4678
                 May 3, 2013
                                                                                                               John.Kimball@cgsadmin.con




                 James P. Edert
                 Regional Inspector General for Audit Services
                 Office oflnspector General
                 Jacob K. Javits Federal Building
                 26 Federal Plaza, Room 3900
                 New York, NY 10278

                 RE: CGS Response to draft OIG Report entitled CGS Administrators, LLC Made Medicare
                 Part B Payments for Therapeutic Shoes Furnished to Beneficiaries in Puerto Rico that
                 Generally Did Not Comply with Federal Requirements (A-02-l l -01001)


                 Dear Mr. Edert,

                 CGS Administrators, LLC, the Durable Medical Equipment Medicare Administrative
                 Contractor for Jurisdiction C, appreciates the opportunity to comment on the Office oflnspector
                 General's draft report entitled CGS Administrators, LLC Made Medicare Part B Payments for
                 Therapeutic Shoes Furnished to Beneficiaries in Puerto Rico that Generally Did Not Comply
                 with Federal Requirements. In addition to requesting comments on the report, you ask that CGS
                 state concurrent or nonconcurrence with each of the three recommendations in the report.

                The OIG makes three (3) recommendations in its report. Those recommendations are:
                   I. Recover the overpayment identified in the report as $13,906.00.
                   2. Determine the additional amount of unallowable payments in the population, estimated
                      to be $767,845.00.
                   3. Use the results of this audit in its supplier educational activities.

                CGS concurs with two of the three recommendations in the report. CGS will recoup the
                overpayment identified and will use the information from the audit in its supplier educational
                activities. For Recommendation 2 CGS will consider, based on data analysis, the inclusion of
                the option to conduct a Statistical Sampling with Overpayment Estimation (SSOE) for the
                Therapeutic Shoes policy group in its next Medical Review Strategy.

                CGS Administrators, LLC has for several years included in its annual Medical Review Strategy
                the policy group and specific codes from the Therapeutic Shoes for Persons with Diabetes
                (TSD) Local Coverage Determination. In addition, CGS has engaged in numerous additional




                Copyright 0 2013, CGS AdminiSIJaloJS, Ll.C
                CGS AdministratoJS, LLC is a Medicare Part A, B, Home llealth and Hospice, and
                DME Medicare Administrative Contractor for the Centers for Medicare & Medicaid Services




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                                             11
                 CGS Response to OIG Report A-02-11 -01001
                 Page 2




                 activities to educate suppliers specifically about TSD and more generally about the use of the
                 KX modifier. Our comments on the report, detailed below, highlight those activities.

                 Comments

                    I. CGS notes in the "Background" section of A-02-11-01001 that the report states that
                       suppliers are required to keep specific documentation on file. This is not correct. It
                       must only be available upon request. In the Documentation Section, the TSD LCD
                       states:

                        KX AND GY MODIFIERS:

                        Suppliers must add a KX modifier to codes for shoes, inserts, and modification only if
                        criteria 1-5 in the Non-Medical Necessity Coverage and Payment Rules section ofthe
                        related Policy Article have been met. This documentation must be available upon
                        request. The Statement ofCertifYing Physician form is not sufficient to meet this
                        requirement.

                        This is a critical point to note and one that is often misunderstood by auditing entities.
                        The definition of the KX modifier is unique to each LCD. For example, use of the KX
                        modifier in the context of diabetic testing strip claims indicates that the beneficiary is
                        using insulin. To emphasize this important distinction to the supplier community, CGS
                        routinely conducts both in-person seminars and online education in the form of webinars
                        for Medicare documentation and the use of the KX modifier (see below). In addition,
                        CGS created an educational video on the KX modifier featuring the Jurisdiction C
                        Medical Director. The video illustrates how the KX modifier definition varies between
                        LCDs and the importance of using this modifier correctly. The website page evidencing
                        the webinar is enclosed as Exhibit A.

                    2. CMS requires contractors to prioritize actions and workload and justify those decisions
                       in an annual Medical Review Strategy. 1 CGS conducts ongoing surveillance of claims
                       data and routinely monitors the types of errors associated with Durable Medical
                       Equipment, Prosthetics, Orthotics and Supplies (DMEPOS) claims. One metric used to
                       prioritize actions is how much the Medicare program disburses to suppliers for
                       DMEPOS items. In 201 2, the Medicare program had $108M in allowed charges for the
                       Therapeutic shoes policy group in Jurisdiction C, ranking # 15 of all DMEPOS policy
                       groups. For comparison, oxygen allowed charges in 2012 totaled $806M and glucose



                1
                  Progr am I n teg ri ty Man ual (Inter net - Only Manual, Publ. 1 00 - 8 , Chapter 3,
                Section 3.2. 1 - Se t ting Priorities and Targeting Re v iews .




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                     12
                 CGS Response to OIG Report A-02-ll-01001
                 Page 3




                       monitor testing supplies totaled $652M? These are the top 2 policy groups in allowed
                       charges for the benefits administered by the DME MACs and the two policy groups with
                       the highest Comprehensive Error Rate Testing (CERT) program errors. Consequently,
                       CGS prioritizes the TSD policy group at a level commensurate with the policy group's
                       positioning and error profile within the entire DMEPOS benefits administered by CGS.

                    3. For the specific issues identified in A-02-11 -01001 (i.e., no order on file, no proof of
                       delivery, no physician certifi.cation), there is no automated ability for contractors to
                       adjudicate claims based on the presence (or lack of) this information. Examination of
                       supporting claim documentation through prepayment review is the only method for
                       preventing these types of claim errors. CGS is not funded to conduct 100% prepayment
                       review of therapeutic shoe claims; consequently, CGS is unable to eliminate entirely the
                       types of claim errors noted in the OIG report.

                       In order to improve the effectiveness of the KX modifier through additional claim
                       review, CGS provided CMS with a Rough Order of Magnitude (ROM) proposal in 2010.
                       In the proposal, CGS suggested implementing prepayment documentation edits for four
                       policy groups based on prior OIG reports noting high error rates for the DMEPOS items.
                       CMS elected to reject the ROM proposal; however, additional funding for partial
                       implementation of the prepayment activities was approved at a later date (see below).

                    4. CGS does recognize that therapeutic shoes have a history of improper payments and, as
                       noted above, has included the TSD policy group in multiple MR Strategies over the past
                       decade. As a result of this knowledge and expertise, CGS included this policy group in
                       its proposal for DMEPOS items to target with the additional funds provided by CMS
                       noted in #3 above. In 2012 CMS provided CGS with additional Medical Review
                       funding. As part of that funding increase, CGS added resources to increase therapeutic
                       shoe claim editing. This edit continues today. Results of this edit to date in 2013 (First
                       Quarter 2013):

                          Diabetic Shoes                    JAN-13    FEB-13    MAR-13
                                       #Claims Reviewed        175        233        185
                                           #Claims Denied      131        197        156
                                                 Denial %      75%       85%        84%


                       So far in 2013, these edits have resulted in $ 158,373.83 in denied claims.

                    5. Finally, CGS has conducted extensive education regarding the TSD policy and use of the
                       KX modifier. The following information reflects CGS' educational outreach specifically

                2
                  Both Oxygen Equipment and Glucose Monitor Supplies have been the topic of
                numerous OIG reports .




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                    13
                 CGS Response to OTG Report A-02-11-0 I 00 I
                 Page 4



                        related to Therapeutic Shoes coverage, coding and documentation requirements
                        (including the KX modifier) in Puerto Rico and Miami, FL. Miami is included in these
                        numbers because of the frequent travel of suppliers between Miami and Puerto Rico:

                        Web-based Education:                               2011 - 11 (2 Spanish)
                        2013-2 (1 Spanish) to date                         2010 -14(1 Spanish)
                        2012 - 12 (2 Spanish)                              2009 - 7


                        In-Person Seminars:                                2011 -Puerto Rico (May/Sept)
                        2012 - Miami (April)                               2010 - Miami (February)
                        2012 - Puerto Rico (June/Sept/Nov)                 20 10 - Puerto Rico (August)
                        2011 - Miami (April/Oct)

                 In summary, CGS Administrators, LLC is fully aware of the vulnerabilities outlined in draft
                 report A-02-11-01001 and, as demonstrated above, has taken aggressive and extensive steps to
                 address those vulnerabilities. Should you have any additional questions, please feel to contact
                 Larry Kennedy at 615.782.4607 or Larry.Kennedy@cgsadmin.com.


                 Sincerely,


                ~;UA{
                 John F. Kimball




Medicare Part B Therapeutic Shoes in Puerto Rico (A-02-11-01001)                                                   14
